HHS/OIG, Audit -"Effect of Staffing on Quality of Care at Nursing Facilities - NHC Healthcare Fort Oglethorpe,"(A-04-04-04001)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - NHC Healthcare Fort Oglethorpe," (A-04-04-04001)
March 1, 2004
Complete
Text of Report is available in PDF format (406 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on our review of 105 current direct care employees, we found, with minor exceptions, that Fort Oglethorpe complied
with Federal and State staffing laws and regulations.  For one direct care employee, Fort Oglethorpe did not comply
with the State background check requirement.  We also noted differences in the direct care hours per resident per
day that we calculated and the hours of care reported in the Nursing Home Compare website.  While Fort Oglethorpe
appears to have resolved the issue of controls over background checks, the facility will need to take action to implement
our recommendation regarding the calculation of direct care hours.